No.

3ht tfje

Supreme Court of tlje ffiniteti States

VERONICA V. BADESCU,
Petitioner,
v.
CATALIN S. BADESCU.
Respondent.

Certificate of Compliance
I, hereby certify that the Petition for a Writ of
Certiorari contains 7535 words and complies with the
word limitation established by Rule 33.l(g)(i) of the Rules
of this Court.

Dated: April 26, 2021
tPL
Veronica V. Badescu
Pro Se

SEE ATTACHED
NOTARIZATION
'/SiW^'^WWVWVV'A/VVVWWv'WWWWWWWa'

ACKNOWLEDGEMENT
A notary public or other officer completing this certificate verifies only the identity of the individual who signed the document
to which this certificate is attached, and not the truthfulness, accuracy, or validity of that document.

State of California
County of Los Angeles

On

)

April 26, 2021

personallyappeared

before me

Clifton N. Star

, Notary Public,

Veronica V, Badescu

who proved to me on the basis of satisfactory evidence to be the person(s) whose name(s) is/are subscribed to the
within instrument and acknowledged to me that he/she/they executed the same in his/her/their authorized
capacity(ies), and that by his/her/their signature(s) on the instrument the person(s), or the entity upon behalf of which
the person(s) acted, executed the instrument.
I certify under PENALTY OF PERJURY under the laws of the State of California that the foregoing paragraph is true and
correct.
Mt

CLIFTON N. STAR
I
Notary Public - California
\
Los Angeles County
>z
Commission tt 2283133
My Comm. Expires Mar 28, 2023

l

Signature:
Notary Public

(Seal)

Document Information:
Date:

April 26, 2021

Title: Certificate of Compliance
Notes:

0

Security seal embossed on both attached document and
this Acknowledgement form.
(REV.150504)

